U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Laquanda G. Garrott v. United States of America,
S.Ct. No. 20-423

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
28, 2020, and placed on the docket on October 2, 2020. The government’s response is due on
November 2, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 2, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0423
GARROTT, LAQUANDA G.
USA

JACQUELINE PERCZEK
BLACK, SREBNICK, KORNSPAN & STUMPF,
PA
201 SOUTH BISCAYNE BLVD.
SUITE 1300
MIAMI, FL 33131
305-371-6421
JPERCZEK@ROYBLACK.COM

